<html>
<title> - MIND THE `SKILLS' GAP: APPRENTICESHIPS AND TRAINING PROGRAMS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


      MIND THE `SKILLS' GAP: APPRENTICESHIPS AND TRAINING PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON INNOVATION AND WORKFORCE DEVELOPMENT

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                              JUNE 4, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-025
             Available via the GPO Website: www.govinfo.gov
                   
                   
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-529                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f4849bb4978187809c919884da979b99da">[email&#160;protected]</a>                            
                   
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                           
                           
                           
                           C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jason Crow..................................................     1
Hon. Troy Balderson..............................................     3

                               WITNESSES

Mr. Joshua Broder, CEO, Tilson, Greenwood Village, CO............     5
Mr. Tim Herbert, Senior Vice President, Research & Market 
  Intelligence, CompTIA, Washington, DC..........................     7
Mr. Ronald Marlow, Vice President for Workforce Development, 
  National Urban League, New York, NY............................     9
Mr. Talbot H. Gee, CEO, HARDI (Heating, Air-conditioning and 
  Refrigeration Distributors International), Columbus, OH........    11

                                APPENDIX

Prepared Statements:
    Mr. Joshua Broder, CEO, Tilson, Greenwood Village, CO........    25
    Mr. Tim Herbert, Senior Vice President, Research & Market 
      Intelligence, CompTIA, Washington, DC......................    27
    Mr. Ronald Marlow, Vice President for Workforce Development, 
      National Urban League, New York, NY........................    33
    Mr. Talbot H. Gee, CEO, HARDI (Heating, Air-conditioning and 
      Refrigeration Distributors International), Columbus, OH....    40
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    ABC - Associated Builders and Contractors....................    56

 
      MIND THE `SKILLS' GAP: APPRENTICESHIPS AND TRAINING PROGRAMS

                              ----------                              


                         TUESDAY, JUNE 4, 2019

    House of Representatives,
               Committee on Small Business,
          Subcommittee on Innovation and Workforce 
                                       Development,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:32 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Jason Crow 
[chairman of the Subcommittee] presiding.
    Present: Crow, Veasey, Houlahan, Finkenauer, Kim, Davids, 
Balderson, Burchett, and Joyce.
    Chairman CROW. Good morning. The Committee will come to 
order. Thank you all for joining us this morning. A special 
thanks to the witnesses for being here today.
    Since the recession ended in 2009, our economy has 
experienced over a decade of economic expansion and despite a 
low unemployment rate, we know that challenges remain.
    Small employers are having an increasingly hard time 
finding skilled and qualified workers. In fact for over a year, 
more jobs have been available in the economy than people 
actively seeking them out.
    Two factors seem to be driving this labor market shortage. 
The first is an existing skills gap among workers and the 
second is largely due to demographics and increased 
retirements. According to Pew Research, 10,000 baby boomers 
turn 65 every day. And this will take place every day until 
2030.
    Both emphasize the importance of transforming the education 
process and requirements for the future of work in our country. 
Small businesses rely on employees with specialized skill sets 
to build and grow their businesses. But their potential for 
growth is hindered when they struggle to fill positions that 
require technical training or certifications. And this problem 
is not unique to one sector of the economy. From the lack of 
tower climbers to build out telecommunications networks in the 
most rural parts of our country, to the void of specialized 
custodians to clean biomedical waste at healthcare facilities, 
and the lack of specialized labor in the construction trades, 
all industries are feeling the strain of inadequate pathways to 
employment. In fact, more than 80 percent of small businesses 
have few or no applicants available to fill open positions. 
Tackling this problem requires working outside of the existing 
workforce. In today's labor market, skilled employees that 
cannot be found must be created. One way in which we can do 
this is by increasing the number and use of apprenticeship 
programs throughout the country.
    Apprenticeships provide the natural benefit of earn as you 
learn education for employees and the opportunity to develop 
otherwise ineligible applicants into valued members of their 
team. These valuable programs are made available through 
Federal programs and private industry initiatives.
    For instance, the Department of Labor has funded 95 million 
dollars in grants for the development of registered 
apprenticeship programs that have resulted in nearly half a 
million new hires. The ones developed by industry partners have 
provided resources for potential employees to connect and build 
skilled teams.
    Take for example telecom companies that struggle with 
daunting costs to build infrastructure on challenging terrain 
which are then compounded by a lack of skilled workers to climb 
towers to help connect Americans. Taking matters into their own 
hands, the telecom community has responded by developing a 
coalition with the mission of training tower climbers on the 
job to deploy networks and eventually upskill to build out 
advanced 5G networks.
    These new networks will not only need to be built but also 
maintained and fixed in response to extreme weather which 
provides an opportunity for climbers and workers to be trained 
and remain in their communities. Private industry has taken 
major steps to prepare the American workforce to address one of 
the greatest threats to small business, cyber security. Through 
cyber security certificate programs, American workers can earn 
valuable certifications required to fill positions in industry 
and the government. These valuable programs also tap into 
underutilized talent encouraging women, minorities, and 
veterans to reenter the workforce. Through a strategic 
partnership with community-based organizations, registered 
apprenticeship programs help diversity talent in technical 
industries by engaging diverse candidates.
    The Federal Government can also play an important role in 
training and retraining the workforce for the future. Programs 
like the Job Core, a national vocational and employment 
training program overseen by the DOL provides disadvantaged 
youth with the education and support they need to secure long-
term employment.
    Job Core takes it one step further and seeks to match small 
business owners with the well-trained, entry level employees 
needed to fill their workforce needs. These are the types of 
smart policies and programs we should support.
    Though registered apprenticeship programs in industry based 
training have provided valuable resources, much more can be 
done to close the skills gap. More Federal Government resources 
should be devoted to train Americans who are not seeking four 
year degrees. Jobs that require more training than high school 
but less than a bachelor's degree account for half of the job 
openings in the U.S.
    Expanding existing government programs to support Americans 
who are willing and able to fill these positions should be a 
top priority. I hope that today's discussion will shed light on 
the many ways apprenticeship programs and specialized training 
can help small business build skilled teams.
    I look forward to working with my colleagues in Congress 
toward breaking down these educational barriers to entry and 
expand the American workforce.
    I thank you each of the witness for joining us today and I 
look forward to your testimony. I would now like to yield to 
the Ranking Member, Mr. Balderson, for his opening statement.
    Mr. BALDERSON. Thank you, Chairman Crow, for holding this 
hearing today, this very important hearing and I especially 
want to thank you and your team and your staff for being 
flexible with today's hearing timing to accommodate everyone's 
busy schedules. It is no easy task and I appreciate your 
teamwork in ensuring this be a productive hearing for everyone.
    As a show of our thanks, my staff and I would like to pass 
over to you the famous buckeye chocolates, the Ohio state 
buckeye chocolate and I look forward to you enjoying those and 
with your staff here and graciously appreciate working with us 
and changing the time schedule on this.
    Chairman CROW. Thank you. And as an alumn of the University 
of Wisconsin, I am not sure if I am allowed to eat these. 
Chrissy Houlahan can eat them apparently. Thank you.
    Mr. BALDERSON. You are welcome. Thank you, Chairman, again, 
seriously.
    The Small Business Committee has heard many accounts of the 
skills gap and its detrimental impact on small businesses 
across the country. According to the National Federation of 
Independent Business, or the NFIB, as we so commonly refer to 
it, 86 percent of those hiring are trying to hire reported few 
or no qualified applicants for the positions they were trying 
to fill. That is not just another statistic. It should be heard 
as a cry for help from our communities.
    We know the skills gap is widening. We can feel these 
effects on all local economies. Last week I had the opportunity 
to sit down with the small business leaders from around my 
Congressional district. These folks were gracious enough to 
volunteer their time to let me know about some of their 
communities' biggest challenges.
    Without a doubt, the number one issue they face is 
workforce development and the lack of availability for skilled 
workers. Today, I intend to learn more about how to address 
these concerns, what solutions can we the Congress offer.
    To help close the skills gap, America needs a workforce 
development strategy to balance the immediate needs of 
employer's long term career goals of employees and rapid 
technology innovation.
    One of these strategies is apprenticeships. A centuries old 
practice that combines on the job learning with related 
technical mentorship and instruction. In the U.S., there are 
countless industry led apprenticeship programs. And one formal 
program run by the Department of Labor called Register 
Apprenticeship.
    Business and industry leaders have been advocating reforms 
to facilitate industry driven based programs and methods to 
reduce the risk of investment for employers.
    In June 2017, President Trump issued an Executive Order 
13801 which established the task force on apprenticeship 
expansion to identify strategies and proposals to promote 
apprenticeships especially in high growth sectors where these 
programs are underutilized.
    I look forward to hearing more about apprenticeships and 
other workforce development strategies. I am specifically 
interested in the role small businesses play as providers and 
the benefactors in these programs. And how we can encourage 
greater participation.
    I appreciate all the witnesses being here today, especially 
my constituent, Mr. Gee. I look forward to your testimony. 
Thank you. I yield back my time.
    Chairman CROW. Thank you, Mr. Balderson. The gentleman 
yields back. And if Committee members have an opening statement 
prepared we would ask that they be submitted for the record.
    I would like to take just a minute to explain the timing 
rules. Each witness gets 5 minutes to testify and the members 
get 5 minutes for questioning. There is a lighting system to 
assist you. The green light will be on when you begin and 
yellow light comes on when you have one minute remaining. The 
red light comes on when you are out of time and we ask that you 
stay within that timeframe to the best of your ability.
    I now would like to introduce our witnesses. Our first 
witness, Mr. Joshua Broder hails from Greenwood Village, 
Colorado in my home district. Mr. Broder is the CEO of Tilson 
which is on a mission to build America's infrastructure. Tilson 
has 550 employees and 23 national offices deploying fiber and 
wireless networks for 4G and 5G cellular, fiber broadband, and 
grid modernization.
    He began his career in leadership as an Army signal officer 
on missions in Europe, the Middle East and Central Asia where 
he was awarded the Bronze Star for service in Afghanistan 
designing, building, and operating the communications network 
for U.S. forces. Thank you for your service, Mr. Broder.
    Mr. Broder holds a bachelor's degree from Middlebury 
College and is a graduate of AT&T's Operation Hand Salute at 
JFK University with a certificate in entrepreneurial studies. 
Welcome, Mr. Broder.
    Our second witness, Mr. Tim Herbert. Mr. Herbert is the 
Senior Vice President of Research and Market Intelligence for 
the computing technology industry association. Under his 
leadership, CompTIA publishes a wide range of reports, briefs 
and data analysis to make sense of the ever changing tech 
landscape.
    CompTIA's cyber states report is recognized as the 
definitive guide to tech workface trends, economic impact, 
innovation and more.
    Prior to joining CompTIA, Mr. Herbert directed the research 
program and was a lead analyst at the Consumer Technology 
Association, producer of the international CES, the largest 
technology event in the world. Additionally, his 
entrepreneurial streak led to involvement in launching two 
startups.
    He holds a BS in economics from John Carroll University and 
an MBA with an economics concentration from George Mason 
University. Welcome, Mr. Herbert.
    Our third witness is Mr. Ronald Marlow. Mr. Marlow serves 
as Vice President for Workforce Development with the National 
Urban League. In this role, Mr. Marlow is responsible for the 
development, delivery and oversight of workforce development 
programs for which the National Urban League receives funding. 
Prior to joining the National Urban League, Mr. Marlow served 
as Undersecretary for Workforce Development for the 
Commonwealth of Massachusetts.
    Among his many accolades are the NAACP's Distinguished 
Keeper of the Flame Award, the Small Business Administration's 
Minority Business Champion Award for both the state of 
Massachusetts and the New England region. Welcome, Mr. Marlow.
    I would like to now yield to our Ranking Member, Mr. 
Balderson, to introduce our final witness.
    Mr. BALDERSON. Thank you, Chairman Crow. Our fourth and 
final witness is Mr. Talbot Gee, CEO of Heating and Air 
Conditioning and Refrigeration Distributors International, also 
known as HARDI. HARDI is headquartered in my district just 
north of Columbus, Ohio.
    Last year, Mr. Gee's organization released a workforce 
recruitment initiative documentary called Hot Commodity. I have 
seen the trailer. I encourage everyone to take some time to 
watch it. It is fascinating. It featured several of his 
employees and their members. This film explored the future of 
the HVAC industry and the next generation entering the 
workforce.
    Mr. Gee has held numerous leadership positions for trade 
associations. He served his--he received his BA in political 
science in 1997 from Johns Hopkins University in Baltimore, 
Maryland and has been at HARDI since 2006.
    I look forward to learning more about him and how we can 
mind the skills gap, particularly by taking advantage of young 
talent. Thank you, Chairman Crow, I yield back.
    Chairman CROW. Thank you very much. Mr. Broder, you are 
recognized for 5 minutes.

 STATEMENTS OF JOSHUA BRODER, CEO TILSON; TIM HERBERT, SENIOR 
VICE PRESIDENT, RESEARCH & MARKET INTELLIGENCE, COMPTIA; RONALD 
  MARLOW, VICE PRESIDENT FOR WORKFORCE DEVELOPMENT, NATIONAL 
     URBAN LEAGUE; TALBOT H. GEE, CEO HARDI (HEATING, AIR-
   CONDITIONING AND REFRIGERATION DISTRIBUTORS INTERNATIONAL)

                   STATEMENT OF JOSHUA BRODER

    Mr. BRODER. Thank you, Chairman Crow and Ranking Member 
Balderson. I appreciate the opportunity to speak here today.
    My name is Joshua Broder and I'm the CEO of Tilson, a high 
growth telecommunications and information technology 
infrastructure deployment company. We were founded in 1996 and 
we're headquartered in Portland, Maine.
    We have experienced extraordinary growth since 2012 and we 
show no signs of slowing. For the past 18 months, we have been 
hiring at a clip of about 35 new team members a month across 
our 23 offices nationwide. With more than 550 employees today 
across 40 states, our largest offices are located in Maine, 
Utah, New York, Denver, both in the DTC and in Parker, and we 
are also in New Hampshire, Alabama, New Mexico, Florida, 
multiple locations in California and New Jersey, North Caroline 
and Nevada.
    In a tight labor market with low unemployment, most 
companies that are our peers are struggling to hire and we are 
certainly no exception. And at our speed, this problem is even 
more pronounced. Instead of quantity, our hiring challenges are 
related to the candidate quality and basic knowledge about 
current and emerging technologies, project management, critical 
thinking skills, leadership experience, and importantly 
cultural fit.
    In 2017, the Wireless Infrastructure Association of which 
we were a member sponsored the Telecommunications Industry 
Registered Apprentice Program commonly known as TIRAP in 
anticipation of an ever growing workforce demand on the 
wireless and small cell construction industry for 4 and 5G. 
Tilson was one of the first companies in the country to become 
a participant in this competency based apprenticeship which 
includes 150 hours of course work and up to 12 months of mentor 
evaluated on the job training.
    Today, Tilson has almost 80 employees enrolled in the tower 
climbing technician I and II tracks, antennae line lead and 
foremen registered under this apprenticeship program. At 
Tilson, all tower technician I's which are entry level employee 
in our tower division are required to be enrolled in the 
apprenticeship program. And all apprentices have an assigned 
mentor within the company.
    The starting salary of a tower technician I apprentice with 
no experience is $18 an hour and a foreman at Tilson can make 
up to $70,000 per year. We offer competitive salaries and an 
excellent healthcare plan and automatic enrollment in our 401K 
plan with an employer contribution regardless of our employee's 
participation. And we think this demonstrates our commitment to 
long term financial health of our employees. Our apprentices 
receive these benefits as well.
    Earlier this year, to meet the administrative and 
management requirements of an employer led apprentice program, 
we made two significant moves to enhance and solidify our 
commitment to training, development and safety.
    In addition to our existing professional safety staff, we 
added a full-time certified safety professional to manage the 
compliance of our apprenticeship program and the progression 
towards completion of these 80 technicians working their way 
through the program.
    Second, we formalized a partnership with the Maine 
community college system to create a web based TIRAP curriculum 
accessible to all of our tower climbing crews enrolled in the 
Tilson TIRAP program regardless of their location within the 
country.
    As I speak right now, the Maine community college system is 
collaborating with my workforce team to create a four-tiered 
digital macro badge which certifies the progress of each 
apprenticeship position. Tower technician I, tower technical 
II, antennal and line lead, and antennae and line foreman. We 
are grateful that President Dave Degler and the workforce 
development staff at the Maine community college system who are 
eager to lead us and work beside us tailoring the best in class 
web-based certificate solution for our mobile nationwide crews. 
This is work that they can do anywhere in the country.
    In the industry, apprenticeship participation is fractured, 
and employer involvement is inconsistent. I lead a high growth 
company in a high demand industry. Outside of my company, the 
growth of our industry will require expertly skilled workers 
who can collectively deliver efficient and quality networks 
that run our economy. They will do this when the industry 
requires contractors and their employees to meet consistent 
standards of training, learning and safety and in particular, 
practical application and commitment to safety.
    A U.S. DOL registered apprenticeship program helps us in 
this concept. But simply stated, the administrative 
requirements entail too much management to compel participation 
of high growth companies with a national footprint and may 
dissuade small business from participation all together. These 
administrations--these administrative requirements play out 
differently in each state that we operate in.
    Coupled with that, insufficient reimbursement incentives 
will not deliver on adoption unless they can offset 
administrative obligations. Tight schedules, long hours, and 
plenty of work leave little room for uniform employer led 
training and development.
    For 2019, with nearly 80 registered apprentices, Tilson 
will only receive a maximum reimbursement of $6,000 that covers 
just eight of the apprentice's administrative costs.
    Mr. Chairman, like you, I am an Army veteran and for 
presumptively the same reasons as you, hiring veterans is 
important to me and I have created ways to hire veterans with 
or without plainly transferable skills for the merit they bring 
is important to Tilson's core values of safety, respect, 
accountability, integrity, professionalism, and composure.
    At one point Tilson's veteran population was nearly 50 
percent of our company and our growth coupled with that will 
allow us to hire veterans under this program in a directly 
transferable way. Thank you.
    Chairman CROW. Thank you, Mr. Broder. Mr. Herbert, you are 
now recognized for 5 minutes.

                    STATEMENT OF TIM HERBERT

    Mr. HERBERT. Chairman Crow, Ranking Member Balderson and 
members of the Committee, on behalf of the Computing Technology 
Industry Association, also referred to as CompTIA, thank you 
for having me here today.
    By just about every measure, technology continues to shape 
the world around us in ever more profound and sometimes 
unexpected ways. Our economy, our workforce, our day to day 
lives are more digital, more connected, and more likely to 
benefit from innovation that until recently was in the realm of 
science fiction.
    Against this backdrop, CompTIA serves as a leading hub for 
bringing together the $1.6 trillion U.S. information technology 
sector. And a workforce of nearly 12 million professionals who 
design, implement, and safeguard the technology ecosystem for 
large organizations and small businesses alike.
    Since its founding, CompTIA has been at the forefront of 
training, developing, and growing the each workforce. CompTIA 
is the global leader in vendor neutral IT certifications having 
issue more than 2.7 million to tech professionals around the 
world.
    CompTIA certifications serve as the bedrock for those 
working in fields such as tech support, network engineering, 
cloud computing, cyber security, analytics, IOT, and more.
    Now more than ever, organizations such as CompTIA and our 
many partners in training, academia, industry, workforce 
development, and government must contend with challenges on 
many fronts.
    In the case of cyber security and our tech workforce, it is 
not an exaggeration to say that we have indeed reached a new 
normal of risk, complexity, and urgency. CompTIA research 
repeatedly confirms cyber security threats have grown in size 
and scope becoming more sophisticated, harder to detect, and 
more harmful to our institutions.
    Beyond the technical, the people and prospect--process 
aspects of cyber security have become equally critical and in 
some cases more difficult for organizations to get right. 
Especially small business that tend to under estimate the 
degree to which they could be targets.
    By extension, gaps in our tech workforce have cyber 
security consequences in addition to the usual economic and 
societal consequences. This may entail gaps in technical 
skills, soft skills, location, awareness, confidence, 
affordability, and even generational workstyles.
    So what is CompTIA doing to tackle these challenges? First, 
CompTIA's philanthropic arm, the 501(c)(3) charity, Creating IT 
Futures works hand in hand with us often acting as our de facto 
innovation laboratory for workforce development programs. 
Creating IT Futures flagship program is the IT ready boot camp.
    The program is designed to take individuals with no or 
limited prior experience, especially those in demographics 
underrepresented in the industry and through technical and soft 
sills training, validated with CompTIA certifications place 
graduates in meaningful tech occupations. Because of the 
stackable nature of the skills and capabilities developed 
through the IT ready program, with a solid foundation graduates 
are then well positioned to progress into higher level career 
paths in areas of specializations such as cyber security, cloud 
computing or IOT.
    Secondly, through our academy partner program, we support 
high schools, career and vocational centers, two year and four 
year college programs, and government funded educational 
agencies by providing a range of instructional resources to 
maximize the odds of student success.
    Given CompTIA's unique role in cyber security, we see 
firsthand how overwhelming the complexities of the market can 
be. This was the catalyst for the creation of the cyber 
workforce analytics took cyber seek.
    The platform was developed through a public private 
partnership of CompTIA, Burning Glass and the U.S. National 
Institution of Standards and Technologies, Initiatives for 
Cyber Security Education.
    Cyber seek ground the need the provide better visibility 
into cyber security workforce dynamics. In addition to helping 
employers, job seekers, and policy makers with smarter, data 
driver decision support, the free tool provides a free--a 
career pathways planner to guide the expansion of the cyber 
security workforce pipeline.
    As our economy and society becomes even more digital in the 
coming years, it's imperative that we develop the education, 
training, certification, and career pathway options that build 
upon the best of what currently works and then address the gaps 
where shortcomings clearly exist.
    Thank you for the opportunity to participate in this 
hearing and I look forward to your questions.
    Chairman CROW. Thank you, Mr. Herbert. Mr. Marlow, you are 
recognized for 5 minutes.

                   STATEMENT OF RONALD MARLOW

    Mr. MARLOW. Good morning, Chairman Crow, Ranking Member 
Balderson and members of the Subcommittee. My name is Ron 
Marlow and it is a pleasure to be here with you this morning. I 
guess before I begin, I should point out that it is a somewhat 
gathering of Big 10 conference for I am Penn State. Most 
definitely.
    The National Urban League is the second oldest civil rights 
organization in the United States founded in 1910 with a 
mission to empower economically, socially, politically, and 
from a civic engagement standpoint, African Americans and other 
disadvantaged populations living in our urban centers. We in 
2010, launched the I Am Empowered Platform, a guiding set of 
principles that will lead us not only into the 21st century but 
will allow us to connect better with our community based 
partners, our partners in the employment sector, government, et 
cetera.
    The pillars of that platform are jobs, education, 
employment, jobs, education, healthcare, and civic engagement. 
And as we go forward, we will continue to connect not only on 
the ground but those individuals who have far too often been 
left out of our economic mainstream.
    It is my understanding that there are three overriding 
principles to today's hearing. One, the exploration of the 
skills gap and how the skills gap impacts employers both large 
and small and enhances the challenges that they're facing. Two, 
the changing nature of work, how IT and the introduction of 
digital platforms, et cetera, not only are going to change the 
current face of work but the future face of work.
    Third, the role of apprenticeship and meeting the evolving 
challenges of connecting would be employers to would be 
individuals seeing employment. It is in this last topic which 
compels my testimony this morning.
    However, please note that the National Urban League stands 
ready to participate as the subcommittee works through these 
three interrelated issues to bring forward public policy 
responses that not only can meet the challenges of any one 
particular area but all three.
    I should point out to you that apprenticeship programs is 
probably the world's oldest training--job and training program 
in the world. Existing going back to the 18th century in 
ancient Babylon and Egypt. Extending through into the 13th 
century with the creation of the Guilds in western European and 
to the United States through a formal recognition of a regional 
approach to registered apprenticeship with the formalization of 
legislation in Wisconsin in 1911.
    In 1937, the Congress created the Fitzgerald Act which 
formalized a national platform for registered apprenticeship. 
Today, registered apprenticeship exists in about 25 states 
through a state led office of apprenticeship and through the 
remaining states through the Federal Government and the 
Department of Labor's Office of Apprenticeship.
    The National Urban League through its Urban League Movement 
and its affiliates, some 90 located in 36 states and serving 
some 300 communities including the District of Columbia have 
been involved in registered apprenticeship programs from almost 
the beginning.
    Today that involvement extends. I would be remiss if I did 
not point out through a contract with the U.S. Department of 
Labor to expand the diversity and inclusion of individuals and 
particularly women and people of color in registered 
apprenticeship programs.
    The National Urban League was also proud to serve on the 
president's taskforce on apprentice expansion. There in that 
role while the president sought to create a platform that led 
to a wider adoption of industry based apprenticeship program in 
particular in those industries and those occupations that had 
not gravitated towards the registered apprenticeship program, 
we lent meaningful engagement to ensure that in this more labor 
based--industry based, excuse me, program that some of the 
protections that are embedded in our registered apprenticeship 
program were not lost.
    As we move forward, I think it is safe to say that there 
are certain lessons that have been learned from apprentice 
programs throughout history.
    One, apprenticeship has been and will continue to be a 
viable alternative to those individuals who neither find higher 
education necessary or find it viable in their immediate 
future.
    Apprenticeship can offer a platform to learn and earn and 
bring employees into the workforce in a meaningful way that 
meets employers where their need is best. Two, a self-regulated 
system is a system designed to breed exclusion. If we have 
learned anything from the registered apprenticeship program, we 
learned that there has to be some regulation, some rules of the 
road to guide participation or populations will be left by the 
wayside.
    And third but not least and I think the Department of Labor 
has taken a lead on this, there has to be a blending of 
requirements. 25 states operating their own program with their 
own unique idiosyncrasies as well as the Federal Government 
lends itself to not being able to meet the needs of regional or 
national employers in a most seamless way and the Department of 
Labor under Secretary Acosta has taken the lead on engaging the 
National Governors Association on creating a better platform.
    I will conclude by saying that the National Urban League as 
a community based effort designed to connect disempowered, 
disadvantaged populations to opportunities stands to ready to 
meet employers, the Federal Government, and others where they 
are to help those we need to serve best. Thank you.
    Chairman CROW. Thank you, Mr. Marlow. Mr. Gee, you are 
recognized for 5 minutes.

                   STATEMENT OF TALBOT H. GEE

    Mr. GEE. Thank you very much, Chairman Crow, Ranking Member 
Balderson, and the Subcommittee for having us here to take part 
in this.
    HARDI, we are the distribution segment of the HVAC and 
refrigeration industry. Our nearly 500 wholesale members, 80 
percent of whom are classified as small businesses buy from the 
manufacturers and sell primarily to the professional 
contractors in all of your respective markets.
    In fact, we have a member location in every U.S. 
Congressional district and just earlier this month, we had 80 
of our members here and many of them were in your offices for 
our fly in talking about issues just like this one.
    Overwhelmingly the number one issue addressing our industry 
for the last several years has been the lack of talent or the 
difficulty finding talent. Most importantly from business 
standpoint, it's the single limited--single largest limiting 
factor to growth for distributors and contractors, the 
inability to add skilled talent to your teams so you can grow 
and continue to scale your business.
    Our industry offers a huge diversity of career 
opportunities from advanced engineering and data science to 
entry level, service technicians, drivers and warehouse teams 
but a lot of people don't know about us.
    Today I'm focusing on opportunities not requiring four year 
college degrees or the debt that often comes with it. And the 
challenges and the opportunities that come with the new 
workforce and how they want to work as they come into the 
economy.
    For example the Bureau of Labor Statistics shows that 
demand for HVACR technicians will grow more than 2 times the 
growth rate for all jobs through 2026. And by 2022, our 
industry will face a shortage of over 115,000 technicians.
    Now while we are the distributors, I'll take the honor and 
privilege of helping to represent our brothers and sisters in 
the contracting community because that is perhaps where the 
most acute shortage of labor and talent is. So my comments will 
cross both streams there a little bit. But what we realized is 
we needed to be better at engaging the next generation of 
talent.
    So more than half of students aren't even aware there are 
career opportunities in the HVACR industry. More than 80 
percent of career opportunities in the HVACR industry do not 
require bachelor's degree. However, nearly a third of all 
middle skilled positions today are filled by those with 
unneeded bachelor degrees.
    The--our documentary--we decided to do a documentary 
because we did the research and found that the new workforce, 
73 percent of which Netflix--Netflix viewers watched a 
documentary at least once in 2016 alone.
    48 percent of Gen Z and Gen X viewers watch a video on 
demand at least once a day. And all indications is the next 
generation is an even greater rate than that going forward. So 
HARDI and the HARDI Foundation commissioned a 50 minute 
documentary called Hot Commodity. We based this and we intend 
to put this on Netflix and other streaming platforms by the end 
of the year. We actually extended the production time so we 
could get more footage from the contactor community and add 
that in to our distributor documentary.
    Based on true stories from four of our actual industry 
characters, it demonstrates the quality incomes, work life 
balance, and career advancement commonly found in our industry, 
and employees will have an access to all of this content to 
help in their own recruiting efforts.
    We focus on distributor and contractor careers that don't 
require a college degree which are very secure, don't get 
outsourced and compensate very well.
    Overcoming debt quickly from unused bachelor degrees or 
avoiding debt all together is something that's very common in 
our industry now and were seeing faster than--and we are seeing 
growth in employment rising faster than the average degree 
holders. We invite the Subcommittee to view and use our 
documentary.
    But we need to overcome some biases that we see in the 
community today. Median HVACR wage income in 2018 was over 
$47,000 making it nearly 50 percent higher than the U.S. median 
wage but no one knows it. Trades often considered only for 
those troubled or academically challenged which is not 
accurate. Parents often believe that success is tied to a 
college degree while less than half actually graduate with 
the--when seeking a degree.
    Despite focus on pursuing college, 63 percent of students 
lack math and critical thinking skills, 54 percent lack general 
education readiness and 32 percent lack verbal communication 
skills all of which are necessary for success in the HVACR 
industry.
    This Subcommittee can help us get the facts out to--that 
college degrees and debt and the debt that often comes with 
them don't necessarily result in success and there are too many 
examples to list in the HVACR industry of success occurring 
absent a college degree.
    Empowering employers to attract new generation of workers, 
I encourage you to read our written testimony outlining the 
innovation three HVACR employers are using to attract and 
develop talent in our industry.
    Auer Steel and Heating Supply Company in Milwaukee, 
Wisconsin helps high school seniors dual enroll and receive 
credit for graduation for local and technical schools while 
already starting their HVACR careers.
    Isaac Heating and Air Conditioning and Isaac University in 
Rochester, New York created their own technical school, 
partnered with a local community college and now issues 
associate degrees in HVAC technology. They also created a boot 
camp to take students through 12 weeks of paid training that 
guarantees full time employment if successfully completed.
    And then finally DeFilippo's Service in Paoli, Pennsylvania 
of course Congresswoman Houlahan, collaboration with a local 
technical college and created a blended learning program to 
prepare for apprenticeship. So it was a great collaboration 
with the local school there.
    In other ways Congress could employer employers trying to 
find and hire today's new kind of workers is DRIVE Safe Act 
which includes the creation of a training program to attract 
new drivers which is a major shortage right now and this would 
enable more young talent to come into the industry.
    Continue to fully fund in the career and technical training 
authorized through the Strengthening Career and Technical 
Education for 21st Century Act.
    Support 529 OPTIONS Act to allow 529 funds to be used for 
apprenticeship materials and tools. Thank you to Congress for 
extending it to allow for using tuition for technical schools 
but now the tools that you need for those are important.
    And then finally, support the Working Family's Flexibility 
Act since 77 percent of millennials believe that a flexible 
work schedule would make them more productive and we see that 
in our own workforce and that of our members.
    And support an evaluation of the Fair Labors and Standards 
Act which is increasingly running counter to how the new 
workforce wants to do their job, who want to use mobile 
devices, want to be able to work off hours, want to be able to 
contribute more but are prohibited by employment law.
    And then finally with the apprenticeships, examples from 
the three HVACR employers I cited earlier, could be examples of 
industry recognized apprenticeship programs but we would like 
the Subcommittee to help us understand why there is a currently 
an exclusion for construction apprenticeships and whether the 
HAVCR industry is included in that exclusion. Further, we ask 
the Committee to help the--help DOL accelerate the development 
of this program so we can get it launched more into our 
industry.
    And then finally partnering with our industry, I mentioned 
that we are the distributes but I do encourage the subcommittee 
to engage with the Plumbing Heating Cooling Contractors 
Association, PHCC, and the Air Conditioning Contactors of 
America, ACCA, to help our industry head off this massive 
technician shortage we are facing in the very near future. 
Thank you very much.
    Chairman CROW. Thank you, Mr. Gee. We appreciate the 
testimony that you have all shared with us. I would like to 
submit this letter from the Associated Builders and Contractors 
the record. Without objection so ordered.
    I will begin by recognizing myself for 5 minutes. Starting 
with Mr. Broder, you had mentioned in your opening statement 
the TIRAP program and the work you are doing with that and the 
collaborations that you have developed with the community 
college system. And I would like to just hear a little bit more 
if I could on the nature of the collaboration and any kind of 
barriers that you have encountered in establishing those 
relationships and building out that pipeline?
    Mr. BRODER. Certainly, Chairman Crow. So we have partnered 
with the community college system in Maine, particularly to 
provide a curriculum where apprentice participants can access 
the training curriculum remotely from wherever they are. So 
there are two other community college systems in the country 
that offer onsite training for tower technicians.
    And the barrier we ran into was with a highly mobile 
workforce and even as a relatively small business working 
across very broad geographies, the idea of resident training 
was quite limiting given that these employees lived all over 
the country and the work was happening where they needed to get 
experience all over the country. So having a mobile solution 
where they could participate remotely was important.
    The second was that it needed to be transferrable. Our 
belief was that if we were going to be part of the solution in 
solving what is a problem for a largely transient workforce, so 
technicians could move from company to company. Their 
credentials need to be good and valid and recognized from an 
accredited institution across all other areas.
    So for us the main barrier was that there didn't exist a 
program that we could leverage that would be usable everywhere.
    Chairman CROW. Thank you. And you had mentioned one other 
thing and it was in regards to administrative requirements 
imposed by DOL. And I always get concerned when I hear, you 
know, some great things that are being done in the private 
sector and challenges being established by departments or 
agencies that, you know, make it harder for you to do what you 
are doing.
    So if you could elaborate on that a little bit, what those 
administrative requirements are that are actually serving as a 
barrier to the bill out of your program
    Mr. BRODER. Certainly. So in our implementation of the 
TIRAP program, we have 80 technicians and to date we have only 
been able to get reimbursement for eight which was facilitated 
I think by an original program funds secured by the Wireless 
Infrastructure Association.
    And so far, we have been unsuccessful at prevailing in 
navigating the administrative requirements at the Federal and 
state level. Most of the apprenticeships we are interacting 
with are fundamentally adjudicated at the state government 
level and I don't believe even with full time staff focusing on 
the administrative barriers associated what participating in 
the apprenticeship have been able to secure reimbursement.
    I would add though, that we are moving at a break neck 
speed and I think this is the important point which is that 
this process requires a fair amount of front-end coordination. 
At the time of the hire of the employee, in many cases we have 
elected to move on and press that employee into active 
participation in the apprenticeship program and hire them 
before other necessary hurdles have been overcome.
    And so I would be happy as a follow up to this hearing to 
provide very specific and textured color commentary from my 
staff on what those mechanical problem might be either at the 
Federal level or on a state by state basis.
    Chairman CROW. It would be helpful. Thank you.
    Mr. BRODER. Yes. We will do that.
    Chairman CROW. And my final question, Mr. Marlow, you had 
mentioned the issue of blending of requirements between the 
state and Federal level and I just if you could very briefly 
elaborate on what that would look like and in your experience 
what is the best way to achieve that?
    Mr. MARLOW. So, Mr. Chairman, I think when you have a 
system in which 50 percent of the system is administered at the 
state level and the other at the Federal level, and that we 
should think about apprenticeship as a form of licensure or 
certification, each state of course has added its own 
idiosyncrasy to that licensing or certification requirement. 
Which makes it a little difficult for a multistate or regional 
or national employer who is looking to embrace registered 
apprenticeship to navigate those idiosyncrasies of those 25 
states in addition to the Federal Government.
    Through the work of the Task Force on Apprenticeship 
Expansion, the task force in pursuit of the presidents goal and 
Secretary Acosta's goal to bring forward industry recognized 
apprenticeship programs realized that one, if you were going to 
have an industry based program you would have to have a system 
of licensure or certification that would allow it to be mobile 
across all 50 states.
    But two, for those industries that wanted to remain 
connected to the registered apprenticeship program, you 
couldn't have IRAP on one hand being seamless but registered 
apprenticeship being bulky and cumbersome on the other.
    Secretary Acosta heard that clearly, heard it well, and is 
now engaging the National Governors association in ways in 
which the governors who have, many of whom have embraced 
registered apprenticeship as a way of fulfilling the needs of 
employer in their states to look at such things as a compact if 
you will such that licensure or certification in one state 
would be good in another state as a way of again making 
register apprenticeship transportable across the system as a 
whole.
    Chairman CROW. Thank you. My time has now experienced. The 
Ranking Member, Mr. Balderson, is now recognized for 5 minutes.
    Mr. BALDERSON. Thank you, Chairman Crow. My first question 
is to Mr. Gee and I was wanting to talk a little bit about the 
clip but you have pretty well gone through that and again you 
and I both encourage everyone in this room to take some time to 
watch that.
    But I also spoke in my opening statement about having a 
roundtable last week in the district and one of the things 
that, you know, we talked a lot about and the conversation 
really surrounded most of it about was what state and Federal 
labor regulations are most burdensome for your industry and 
those businesses that you face?
    Mr. GEE. Well, thank you for the question, I appreciate it. 
The--I made reference to the Working Family's Flexibility Act 
that has not been enacted, it has not come forward. We would 
like to see that more forward.
    That gives employers or employees the option of accepting 
one and a half hours of comp time rather than overtime if they 
choose to have that time versus the compensation. We have 
noticed this within our own workforce and we have definitely 
heard about it from the members that a lot of the new workforce 
coming in really values that work life balance. They want to be 
able to have that flexibility but right now employers are 
prohibited from rewarding or compensating employees with comp 
time. So that act would be a great way of going, of helping in 
that regard.
    And then the second one I had mentioned as far as the Fair 
Labor Standards Act is even if an employee wants to respond to 
an email off hours, it puts the employer at risk. The employer 
is then liable and the employer may have even stated a policy 
that they are not to be doing that off hours. But a motivated 
employee, especially today who likes that balance and doesn't 
mind working in odd hours in exchange for flexibility in their 
day to day life are happy to do so.
    And I want to make sure everyone understands, that's not 
limited to just the executives. We are seeing mobile 
technologies in the hands of the front line technicians now. So 
this is all throughout the industry, this is not reserved to 
the C suite or anything like that or the management ranks. So 
that's just something I think maybe has gotten outdated and 
just needs to be updated for the new workforce.
    Mr. BALDERSON. All right, thank you. My final question, Mr. 
Gee, for you is in your testimony you explained that the HVAC 
industry needs workers from all educational levels ranging from 
high school to advanced STEM programs. Do you use the same 
strategies when recruiting high, middle, and low skilled 
workers?
    Mr. GEE. No, actually not. However, I know we focus for our 
members on helping our members be the best employers possible, 
right. So there are going to be core tenants to being a great 
employer. However the recruiting process is going to be vastly 
different.
    We have a very large member headquartered in the southeast 
but is national that is famous for its college recruitment 
program. So they target in their management program college 
graduates and Ferguson Enterprises does a fantastic job with 
that and they rise throughout the organization but they start 
even as a graduate from a prestigious university in the 
warehouse and they learn every part of the business as they 
come up through in their management training program.
    On the flip side, as the examples I laid out here which is 
just a handful of many that we received. Outreach and 
coordination with trade schools or if there wasn't one, 
building their own. Creating their own trade school so then 
those kids who don't feel like college is the right fit for 
them have a place to go. And the best part is they're out and 
working and making more money than most college graduates in 
less time and opening themselves up to a fantastic career going 
forward.
    Mr. BALDERSON. Thank you very much. My next question is for 
Mr. Broder and I apologize, I am going to do this quickly, I 
have not left you much time. But we hear a lot about 5G. I hear 
a lot about it because part of my district is in Columbus, Ohio 
and we will be one of the cities getting 5G.
    In your opinion, I mean, would this backlog with the lack 
of workforce out there for 5G installment, how far does this 
put the advancement of the 5G installation?
    Mr. BRODER. Mr. Balderson, it's my belief that the skills 
gap and in particular the employment gap in my country--in my 
company we have 100 empty positions in the context of a 550 
employee company is a major challenge in the deployment of 5G.
    And we already see in the field we are currently deploying 
5G in dozens of markets around the country today that the lack 
of skilled and available workers is impacting production 
schedules. So we think this could be lengthening that 
deployment by potentially years and needs immediate attention.
    We do think the Communications Jobs Training Act of 2019 
could be a positive step in the right direction in helping to 
arm companies with skills-based training locally.
    Mr. BALDERSON. And thank you very much. You made it. Well 
done.
    Chairman CROW. Thank you. The gentleman yields back. The 
gentlelady from Pennsylvania is now recognized for 5 minutes.
    Ms. HOULAHAN. Thank you, Mr. Chair, and thank you gentlemen 
for coming today. I have a lot of questions but only 5 minutes. 
My first question is for Mr. Broder. I am a veteran as well and 
I understand that you have been able to use the Maine Hire A 
Vet Program and the employer's support of the Guard and Reserve 
program. How did you find out about those programs?
    Mr. BRODER. Thank you for that question. So we have 
participated in the Maine Hire A Vet program which is companies 
in Maine hiring 100 vets in 100 days. We found out about it 
through our Vice President of Workforce Development, Adria Horn 
who at the time was the then Executive Director of the Maine 
Bureau of Veteran's Affairs.
    And so the Maine Bureau of Veteran's Affairs has been 
aggressively marketing the workforce pathway of both returning 
veterans and veterans going through reskilling in the economy 
and that's been just a tremendous asset for our company.
    Ms. HOULAHAN. And how would you encourage other small 
businesses to find out about programs like that other than 
through the process that you had?
    Mr. BRODER. So each state has some kind of an executive 
agency that engages with veterans workforce transition and in 
many cases those agencies act as clearing houses for accessing 
Federal programs so that's been a tremendous boon to us and we 
think is replicable in other states.
    We also know that there are private partners and nonprofit 
partners as well, for example, in the telecommunications 
industry, Warriors for Wireless and Airstream Renewables have 
been helping veterans transition and we would encourage others 
in other places to find those in their industries that have 
built those pathways.
    Ms. HOULAHAN. And what do you think that we can do as a 
Congress to help educate service members on these kinds of 
programs? Is there something that we can be doing to be more 
helpful
    Mr. BRODER. So this is an issue close to my heart. When I 
transitioned out of the military, I returned from five years 
overseas so I had an Army career and alumni program experience 
and largely that Army career and alumni experience as is the 
case with many services, is very, very short as the veteran is 
transitioning out.
    And so the coaching that they receive prior to that is 
about retention. And so the moment when the service has 
realized that that employee is gone forever and is leaving the 
Department of Defense and is entering an alumni phase, it's 
simply too short. And so I think a bit more of thoughtful 
approach to understanding that there may be a longer glide 
slope than the last two weeks will be important.
    Ms. HOULAHAN. That is really, really helpful. Thank you. My 
next question is for Mr. Herbert regarding cyber seek, the tool 
that you talked about a little bit.
    Can you expand on how you think it is helping small 
businesses look for talent and are there other tools out there 
that you are aware of that are also helpful?
    Mr. HERBERT. Thank you for the question. Based on seem of 
the usage statistics, we certainly believe it is having a 
positive impact and based on many of the conversations it 
aligns to the missed cyber security workforce framework. So 
it's important that it provides a common language for how we 
discuss cyber security.
    And especially today we have moved beyond the days of 
generalists and there are many nuances to cyber security. And 
we are moving into new areas, penetration testing, information 
assurance, data loss prevention, and so forth. So I think it's, 
it helps to provide that reference point for many companies to 
really think about what their needs are.
    And in terms of the other component of cyber seek which is 
the career pathway so that is especially important in that it 
is very difficult to just take a student or a job candidate and 
make them a cyber security expert.
    There are many feeder roles and I think it is important, 
especially to help those that may be entering as a tech support 
technician with perhaps a two year degree or going through an 
IT ready program to show them what that path is like over the 
next three to four years to move into cyber security.
    And especially for small businesses as well because they 
are competing. It's an incredibly competitive market and one of 
the fastest growing skills over the next 10 years so for small 
businesses to have a way to go communicate to their prospects 
about what that career pathway may look like.
    Ms. HOULAHAN. So that is actually my final question which 
is sort of the inverse of what we were talking about on the 
kind of demand side.
    As a small business owner and operator new to this 
industry, how do I know what I am looking for if I don't 
understand the career pathways? What is the best way for me to 
learn what it is that I am looking for in terms of a hire?
    Mr. HERBERT. Well, there are certainly many resources from 
the SBA and from many of the trade associations. One of the 
challenges we often see because businesses they don't know 
specifically what they need so they ask for the world.
    And we have these really difficult situations where they're 
asking for advanced degrees and they're asking for 10 different 
certifications and in some cases they want 5 years of 
experience in a technology that's only two years old. So it 
doesn't make any sense.
    But we do work very closely with employers to help provide 
them essentially hiring guides so they can really right size 
the job candidates and also the acknowledgment that they have 
to think beyond some of the candidates that they may have a 
certain sense of IT workers look one way.
    And that's one of the missions of CompTIA to really expand 
the pipeline. And beyond even the technical there are so many 
different types of skills today so someone with a psychology 
background may be very adept at studying social engineering so 
we really have to be able to bridge the technical and the 
business and the social side.
    Ms. HOULAHAN. Thank you. I very much appreciate your time, 
gentlemen. I yield back.
    Chairman CROW. Thank you. The gentlelady yields back. The 
gentleman from Tennessee is now recognized for 5 minutes.
    Mr. BURCHETT. Thank you, Mr. Chairman. Mr. Gee, some of the 
statistics that you pointed out regarding those who are in 
apprenticeship speaks to the desire to continue to grow 
technical programs.
    Along with funding support and incentivizing tax savings 
accounts which you mentioned in your testimony, what can we do 
to continue to grow these programs?
    Mr. GEE. Well, I think the theme of my comments was 
empowering the employer. Right. So I would certainly respect 
your comments about how difficult it can be when you are 
multistate employer and trying to deal with a lot of patchwork 
but at the same time, every market is a little bit different 
and every focus of every business a little bit different.
    So the potential power in that industry led apprenticeship 
program model is you can craft a program that's exactly what 
your market needs. So getting, making that as easy as possible 
to implement, as easy as possible to design, and then getting 
the support you can get from the Federal Government to help you 
pull that together.
    A lot of people may want to do this but don't even know 
necessarily what type of resources they might have to put into 
it to do it right. So the best practice is the guidelines, all 
that sort of stuff will be very helpful. But we have seen--I 
have tried to give you some examples where I think we have 
unintentionally already started to build these things. Now we 
might have the chance of having the weight of the DOL program 
behind it that can raise its stature and help attract even more 
talent in other industry.
    Mr. BURCHETT. Okay. But do you feel that there is just not 
enough information out there for the tech programs and for 
those that are looking to join the workforce? And maybe if it 
is out there it is not accessible. You know, folks are working 
and then they are looking for something and----
    Mr. GEE. We are definitely seeing a lot of success for 
second careers in this industry where their first attempt 
didn't work out the way they wanted it to and then they find 
our industry later.
    But, you know, I don't know why this is but like it or not, 
there seems to be a bit of a biased against the trades and the 
vocational schools at the high school level and maybe even at 
the middle school level. Kids that may show an aptitude in 
those areas or maybe not have expressed an interest in college.
    I don't think it gets presented to them as a real 
attractive opportunity to go into those fields even though we 
can document all day the incredible successes when you can go 
into these fields and grow your own career.
    Mr. BURCHETT. I guess I am one of those kids. I have a 
degree in technological and build education so from UT which is 
an SEC school by the way.
    It is not a two year school like those earlier referenced. 
No response. Okay. I was going to cut you off.
    Chairman CROW. You didn't bring me any chocolates.
    Mr. BURCHETT. No, I know. Well, give me a minute and I will 
run out and get you some.
    Mr. Herbert, the growing digital economy and cyber security 
needs for small business portions for your testimony includes 
skill gap issues. Could you elaborate just a little further on 
how we can fix this and would small business and technical 
schools or universities getting together for a round table be 
beneficial?
    You know, you see those things and generally we do those 
and they are, I mean, you know, the press comes and everybody 
makes there little statement and then maybe there is a study 
and study gets put in a nice binder and it ends up on some 
shelf somewhere. So I am curious what your thoughts are on 
that.
    Mr. HERBERT. Certainly as it relates to the skills gap, 
yes, it is a pressing problem and something I tried to 
emphasize that it's more than just technical skills. And that's 
something that is often overlooked in technology, that there is 
such an important component of soft skills which could be 
collaboration, it could be project management, it could be the 
basics of communications.
    We have often gaps in location where we have trained 
workers in one city, the jobs may be in another city. So 
there's a lot of different types of gaps and certainly that's 
something that we try to dissect and not try to overgeneralize 
too much. And then in terms of the round table, that is 
something that we are very active with business advisory groups 
and especially in technology because it moves so fast that we 
have to ensure that these skills that we are teaching aling to 
the needs of the marketplace.
    And too often we develop these programs that have very, 
very long lead times and by time the student is trained, the 
market has moved and the technology may be obsolete.
    So we in the sense that I think a roundtable it does 
confirm what these skills requirements are, what employers are 
looking for and then it's also the feedback loop of what I 
alluded to earlier that some employers, the technology is new 
to them as well and they may not necessarily know what need 
from a skills perspective so it really helps to align those two 
in developing programs and training.
    Mr. BURCHETT. Thank you. Mr. Chairman, I yield back my 
negative 12 seconds to you that I have gone over. Thank you, 
sir.
    Chairman CROW. Thank you, the gentlemen yields back. The 
gentlelady from Iowa is recognized for 5 minutes.
    Ms. FINKENAUER. Thank you, Mr. Chair. And thanks for 
everyone here testifying today. Obviously this is an incredibly 
important topic and I know just how important apprenticeships 
are to closing gaps in our workforce. And I have seen firsthand 
how important union apprenticeships are when it comes to 
actually achieving the American dream and keeping it alive. I 
again got to see that firsthand.
    I am a proud great granddaughter of an IVAW lineman and 
also a bricklayer. But I am an even prouder daughter of a union 
pipefitter welder.
    My dad was in the United Association, still is for over 40 
years and the building trades unions invented apprenticeships. 
Theirs are the gold standard for providing workers with the 
wages they have earned and the benefits they deserve.
    As we look to expand apprenticeship opportunities to meet 
the needs of our economy, we cannot do it at the expense of 
worker protections and the quality of training. The building 
trades built the middle class and truly provide workers and 
their families with what they need.
    While I understand that each industry faces very different 
challenges when it comes to creating apprenticeships, we should 
look to the building trade's model as a gold standard. Not just 
for safety, not just for quality of life, but for all of the 
benefits that again I got to see firsthand.
    Building trades allowed for wages that put food on my table 
and clothes on my back and helped my dad send all four of his 
kids to first generation college graduates.
    We were able to follow our dreams and he was able to watch 
that which truly I believe is the American dreams where you can 
see your kids work hard and be able to follow what they want 
and that again is what the building trades has provided for my 
family and countless others across my district.
    It also provided for good healthcare and good pensions 
where my dad was able to retire and buy a bass boat. And high 
quality apprenticeship programs are also obviously incredibly 
important to the future of our economy but so are pre 
apprenticeship programs which I know you all care so much 
about.
    These programs help attract workers to high demand fields 
and provide them with the strong foundation of the skills 
needed to succeed. I am a very proud cosponsor of the PATHH 
Act, the Pre Apprenticeship To Hard Hats Act which provides 
grants to support pre apprenticeship programs for women, 
minorities, individuals from high poverty areas, and folks who 
have faced long standing unemployment. This bill aims to open 
the door for underserved communities to compete for these good 
paying jobs.
    Mr. Marlow, with your experience and you have extensive 
experience with workforce development, can you just touch on 
more for the Committee about how pre apprenticeship programs 
help level the playing field for women, people of color and 
others that are traditionally under represented when it comes 
to apprenticeship programs and how could these grants for pre 
apprenticeship programs help with this need?
    Mr. MARLOW. Thank you for the question. Pre apprenticeship 
especially in the communities that the National Urban League 
through the Urban League Movement serves are an incredible 
bridge to the opportunities that exist in registered 
apprenticeship.
    Absent pre apprenticeship, we would not be able to connect 
individuals not only to the opportunities but to help them move 
from where they are to where they want to be.
    In fact, under our current contract that we have with the 
Department of Labor, we are able to recruit diverse individuals 
not only into registered apprenticeship but to pre 
apprenticeship. And it is safe to say that 70 percent of the 
individuals that we recruited are into pre apprenticeship and 
that's no fault of the client population themselves, that is 
actually a reflection in many instances of the education or 
educational preparation they did not receive while in high 
school.
    Ms. FINKENAUER. Yes.
    Mr. MARLOW. In many instances, the pre apprenticeship path 
is open primarily to individuals because they are not quite 
ready to pass the aptitude tests that are required to make it 
into registered apprenticeship.
    And pre apprenticeship as you said gives them that 
foundation in those educational tools as well as introducing 
them to what a job and more importantly a career pathway means 
in registered apprenticeship.
    And so anything and everything that the Congress can do to 
not only support registered apprenticeship and I think the 
Congress has been on record in supporting registered 
apprenticeship over a number of years including last year's 
appropriation but extending that bridge one step further if you 
will to making that pre pathway and the former pre 
apprenticeship is very important as well and so anything that 
can be done to help further that or lengthen that bridge would 
be welcomed.
    Ms. FINKENAUER. Well, thank you Mr. Marlow, I know my time 
is about to expire but again, thank you all for being here 
today and talking about this very, very important topic. Thank 
you.
    Chairman CROW. Thank you. The gentlelady's time has 
expired. The gentleman from Pennsylvania, Mr. Joyce, is now 
recognized for 5 minutes.
    Mr. JOYCE. Thank you, Chairman Crow and thank you Member 
Finkenauer for your incite. We as a team on small business view 
ourselves as being bipartisan participants in the United States 
Congress, something that is often not seen. Mr. Gee, I would 
like to address what I experienced just four or five days ago. 
I was honored to be the commencement address at Cumberland 
Valley Christian School in Chambersburg, Pennsylvania where I 
saw brilliant young men and women, some going to Big 10 schools 
like I attended, some going into the military, and one 
courageous young man who is going into the HVAC career.
    This was announced and afterwards and during my 
presentation I acknowledged him how important these people are 
for our workforce development, for obtaining careers with jobs 
that have family sustaining wages. We need to elevate these 
people. That is what we see and that is what we hear from you.
    Mr. Gee, I would like you to address who we as members of 
Small Business Committee how we can continue to elevate the 
course and encourage those individuals who look to enter into 
careers such as HVACR.
    Mr. GEE. Thank you very much. I really appreciate the 
comments and I'm glad you had that experience. That individual 
is going to have a great career and will probably be in 
leadership or maybe even ownership at some point in time. 
That's the way our industry works which is fantastic.
    Awareness is probably still the biggest issue we have. 
Don't take this as self-serving but please spread our 
documentary far and wide. I think that is a medium that will be 
readily consumed by the new workforce. I think it will get 
attractive to them and it will open a lot of their eyes.
    Secondly, we are happy to give you the list of the multiple 
member locations in all of your districts and I encourage you 
or your staffs to get out there and visit them and get to know 
the workers and their backgrounds because I think you will get 
100 times the stories of what you just experienced with that 
young individual.
    So engagement and awareness are the biggest things I think 
the Committee can really help with. And then helping us 
understand what are the roots of some of these biases? Again, I 
don't know the root of it but I do know having young kids that 
it is not encouraged through most of your scholastic career to 
even consider the trades. And even though I know for a fact 
what a great career it is, right.
    And then representing wholesale distributors no one knows 
what distribution is. Right. So that's the, that's even a more 
hidden industry. So again any help from the Small Business 
Committee in terms of awareness, in terms of getting to the 
root of these biases against some of these skilled trades I 
think could go a long way and create a lot more incredible 
careers for a lot of young individuals.
    Mr. JOYCE. Thank you. I would like to continue this 
dialogue because you talk about encouraging and I might suggest 
to you and, Mr. Gee, I will ask you to address this. But you 
might want to consider your branding a little bit differently.
    I don't think that I would call this boot camp. I think it 
is difficult to encourage many people today to approach this as 
boot camp. I would approach this as a career camp, as an 
opportunity for people more rapidly to enter the workforce with 
intense training. And your ability to provide that intense 
training allows people to springboard into the trades. Can you 
address that?
    Mr. GEE. That's a great comment. I know that company well. 
I know there is a lot of veterans in that company so that's 
probably where their terminology may have come from. But I'll 
pass that on.
    You're right, branding is an absolute issue. We are working 
as an industry to rebrand to understand how much technology is 
in the HVAC and refrigeration industry. Most think it's 
entirely in, you know, dark places, turning wrenches but there 
is a ton of electronics, a ton of digital and communicative 
capabilities that are built into it so that, we are helping our 
members with their messaging.
    I want to give a credit to our partners on this plumbing 
side, the American Supply Association. They create a fantastic 
toolkit for their members to go take to jobs fairs and 
recruitment events and they help the members with all that type 
of messaging. What, you know, who to brand your industry and 
then therefore your business more attractively to the incoming 
workforce.
    So that's something that we should probably be doing more 
of but your points well taken. We do have a branding issue. It 
is an exciting high tech field and most people don't know that.
    Mr. JOYCE. Thank you for your comments. Chairman Crow, I 
yield back my time.
    Chairman CROW. Thank you. The gentleman yields back. Thank 
you very much to all of our witnesses for sharing your time 
with us today.
    Apprenticeship programs and technical training create 
pathways to economic empowerment for small firms and their 
potential employees. Skilled workers will lay the foundation 
for technological advancement and fuel the growth and 
development of small employers.
    The public and private sector must continue to work 
together to solve this pervasive issue. Closing the skills gap 
will require directed resources to support existing programs 
and incentive the development of new ones.
    Members of this Committee must continue to raise awareness 
of the value of vocational education and the development of the 
American workforce.
    I would ask unanimous consent that members have 5 
legislative days to submit statements supporting materials for 
the record. And without objection, so ordered.
    And if there is no further business to come before the 
committee, we are adjourned. I thank you very much.
    [Whereupon, at 12:43 p.m., the subcommittee was adjourned.]
                           
                           A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
